WAIVER

SUPREME COURT OF THE UNITED STATES

No. |21-91

Wesley Perkins Whitney Brewster

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court

Please check the appropriate box:
Oo 1 am filing this waiver on behalf of all respondents.

© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

 

‘Whitney Brewster

Please check the appropriate box:

© Jama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

  

oO 1am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office. 1 First Street, NE. Washington, D.C. 20543).

Signature: Lé——

Date: 8/17/21

 

(Type or print) Name Christopher Lee Lindsey

© wr. O Ms. O Mrs O Miss
Firm Office of the Attorney General of Texas
Address 'P O Box 12548

 

City & State Austin, Texas Zip 78711-2548

Phone 512-463-2157 Email christopher.lindsey@oag.texas.gov

   

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Pl indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Wesley Perkins
cc:
 
